   DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                        Office of Audit Services, Region VII
                                                                        601 East 12th Street, Room 0429
                                                                        Kansas City, MO 64106
July 22, 2011

Report Number: A-07-10-04172

Ms. Vivianne M. Chaumont
Director
Division of Medicaid & Long-Term Care
Department of Health & Human Services
301 Centennial Mall South, 3rd Floor
Lincoln, NE 68509-5026

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Costs Claimed by the State of Nebraska for Non-
Emergency Medical Transportation Services Provided by Shared Mobility Coach. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-10-04172 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Vivianne M. Chaumont


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
    Department of Health & Human Services
               OFFICE OF
          INSPECTOR GENERAL




     REVIEW OF COSTS CLAIMED
    BY THE STATE OF NEBRASKA
  FOR NON-EMERGENCY MEDICAL
TRANSPORTATION SERVICES PROVIDED
    BY SHARED MOBILITY COACH



`




                          Daniel R. Levinson
                           Inspector General

                              July 2011
                            A-07-10-04172
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (the State agency) administers the State Medicaid program.

Federal regulations at 42 CFR § 431.53 require each State to ensure that Medicaid recipients
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. These services, commonly known as non-
emergency medical transportation (NEMT) services, include costs for transportation that the
State deems necessary to secure medical examinations and treatment for Medicaid recipients. In
Nebraska, NEMT services also include transportation associated with a non-medical service.

Transportation providers submit claims to the State agency in order to receive compensation for
NEMT services they provide to Medicaid recipients. Each claim may include multiple NEMT
services. State regulations at 473 Nebraska Administrative Code 3-002.02 require transportation
providers to retain financial and statistical records related to these services. The State agency
then submits to CMS its Medicaid expenditures for the Federal share of its claimed costs.

Shared Mobility Coach (SMC) is a transportation provider in Omaha, Nebraska. For the period
July 1, 2007, through June 30, 2009, the State agency claimed $1,269,990 ($776,680 Federal
share) for NEMT services provided by SMC.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
NEMT services provided by SMC in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicaid reimbursement for NEMT services provided by
SMC in accordance with Federal and State requirements. Our review of 100 sampled claims
showed that 33 claims had 70 errors totaling $1,091 ($674 Federal share) of improper Medicaid
reimbursement (some claims had more than one type of error). The errors included claims with
59 NEMT services that were not rendered, including instances for recipients who had either
canceled the requested service or were “no-shows” at the scheduled origination address, and
claims with 11 unsupported services.




                                                i
Based on the results of our sample, we estimated that the State agency claimed $89,589 ($54,766
Federal share) for NEMT services that were not allowable pursuant to Federal and State
requirements. Although the State agency had controls in place to monitor payments for NEMT
services, these controls did not always prevent unallowable services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $54,766 to the Federal Government for unallowable NEMT services that did not
       comply with Federal and State requirements,

   •   instruct transportation providers not to submit claims for “no-shows” or cancellations,
       and

   •   strengthen internal controls to prevent and detect improper payments for NEMT services.

SHARED MOBILITY COACH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Shared Mobility Coach Comments

In written comments on our draft report, SMC disagreed with some of our findings. Specifically,
SMC stated that we should not classify the 59 NEMT services (that were not rendered) as errors
because there was no clear definition of billing for cancellations and “no-shows.” SMC stated
that it has implemented corrective action to prevent future claims for “no-shows” or
cancellations. For our finding related to the 11 unsupported services, SMC attributed the errors
to “… poor communication or documentation between drivers and dispatchers.” SMC’s
comments appear in their entirety as Appendix C.

Office of Inspector General Response

Nothing in SMC’s written comments caused us to change our findings or recommendations
regarding improper claims for cancellations or “no-shows.” Although SMC stated that there was
no clear definition of billing for these instances, State requirements mandate that the State
agency only pay for transportation services when the client is actually in the vehicle. Further,
State agency officials informed us that they were unaware of SMC’s billing practices in these
instances.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our first recommendation.
Regarding our second recommendation, the State agency said that it had reminded providers in
April 2009 that they would not receive compensation for wait times or “no-shows.” For our
third recommendation, the State agency described corrective actions that it had implemented or
planned to implement. The State agency’s comments appear in their entirety as Appendix D.

                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program and Non-Emergency Medical Transportation Services ........1
              Nebraska Department of Health & Human Services ...........................................1
              Non-Emergency Medical Transportation in Nebraska ........................................2
              Shared Mobility Coach ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          UNALLOWABLE SERVICES ...................................................................................... 4
               Billed Services Not Rendered ............................................................................ 4
               Unsupported Services ........................................................................................ 4

          UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ........................... 5

          RECOMMENDATIONS .................................................................................................5

          SHARED MOBILITY COACH COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................5
                Shared Mobility Coach Comments ......................................................................5
                Office of Inspector General Response .................................................................6

          STATE AGENCY COMMENTS ....................................................................................6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: SHARED MOBILITY COACH COMMENTS

          D: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program and Non-Emergency Medical Transportation Services

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal regulations at 42 CFR § 431.53 require each State to ensure that Medicaid recipients
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. Federal regulations at 42 CFR § 440.170 define
transportation expenses as costs for transportation that the State deems necessary to secure
medical examinations and treatment for Medicaid recipients. These services are commonly
known as non-emergency medical transportation (NEMT) services.

Nebraska Department of Health & Human Services

In Nebraska, the Department of Health & Human Services (the State agency) administers the
State’s Medicaid program.

The responsibilities of the State agency include processing and monitoring NEMT claims. As
part of its monitoring responsibilities, the State agency has controls in place to monitor payments
for NEMT services pursuant to Federal and State requirements. If the State agency identifies a
problem or concern, it will review a provider’s supporting documentation to ensure that
reimbursement was made for an authorized service.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
report Medicaid expenditures for Federal reimbursement. CMS reimburses the State agency the
Federal share of the State agency’s claimed costs, based on the Federal medical assistance
percentage (FMAP). The State of Nebraska’s FMAP rate ranged from 57.93 percent to 58.02
percent for claims paid from July 1, 2007, through September 30, 2008. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, authorized the States to receive a higher FMAP. For the period
October 1, 2008, through June 30, 2009, the State of Nebraska’s FMAP rate was increased and
ranged from 65.74 to 67.79 percent under these provisions.




                                                 1
Non-Emergency Medical Transportation in Nebraska

In accordance with the CMS-approved State plan, the NEMT program provides transportation
services for Medicaid recipients to receive Medicaid-covered health care services. In addition,
pursuant to a CMS-approved Home and Community-Based waiver program, NEMT services
include transportation associated with a non-medical service.

Transportation providers submit claims to the State agency in order to receive compensation for
NEMT services they provide to Medicaid recipients. Each claim may include multiple NEMT
services. State regulations at 473 Nebraska Administrative Code (NAC) 3-002.02 require
transportation providers to retain financial and statistical records related to these services.

For the period July 1, 2007, through June 30, 2009, the State agency claimed $12,853,521
($7,882,621 Federal share) for all NEMT services.

Shared Mobility Coach

Shared Mobility Coach (SMC) is a transportation provider in Omaha, Nebraska. For the period
July 1, 2007, through June 30, 2009, the State agency claimed $1,269,990 ($776,680 Federal
share) for NEMT services provided by SMC.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
NEMT services provided by SMC in accordance with Federal and State requirements.

Scope

We reviewed claims for NEMT services totaling $1,269,990 ($776,680 Federal share) that the
State agency claimed for services provided by SMC from July 1, 2007, through June 30, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our review of internal controls to those controls related
directly to processing and monitoring NEMT claims.

We conducted our fieldwork at the State agency in Lincoln, Nebraska, and at SMC’s office in
Omaha, Nebraska.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal and State laws, regulations, and other requirements related to
       Medicaid NEMT services, as well as the Nebraska State Plan and the Home and
       Community-Based waiver;

   •   reviewed the State agency’s provider agreement with SMC;

   •   interviewed State agency officials to gain an understanding of how they administer and
       monitor the Medicaid NEMT program;

   •   reviewed the State agency’s reconciliation of electronic claims data to the CMS-64
       reports for NEMT services for the period July 1, 2007, through June 30, 2009;

   •   interviewed SMC officials regarding policies and procedures (1) used to record NEMT
       services in their system and (2) for the submission of bills to the State agency to claim
       reimbursement;

   •   selected and reviewed a random sample of 100 claims which included 585 NEMT
       services and whose payments, totaling $9,323, were made by the State agency to SMC
       for NEMT services provided during the period July 1, 2007, through June 30, 2009;

   •   obtained and reviewed the supporting documentation for each sampled claim to
       determine the allowability of the claim; and

   •   provided the results of our review to SMC officials on January 12, 2011, and discussed
       those results with State agency officials on January 24, 2011.

Appendixes A and B contains details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicaid reimbursement for NEMT services provided by
SMC in accordance with Federal and State requirements. Our review of 100 sampled claims
showed that 33 claims had 70 errors totaling $1,091 ($674 Federal share) of improper Medicaid
reimbursement (some claims had more than one type of error). The errors included claims with
59 NEMT services that were not rendered, including instances for recipients who had either


                                                3
canceled the requested service or were “no-shows” at the scheduled origination address, and
claims with 11 unsupported services.

Based on the results of our sample, we estimated that the State agency claimed $89,589 ($54,766
Federal share) for NEMT services that were not allowable pursuant to Federal and State
requirements. Although the State agency had controls in place to monitor payments for NEMT
services, these controls did not always prevent unallowable services.

UNALLOWABLE SERVICES

Billed Services Not Rendered

471 NAC 27-005 specifies that the State agency will pay for transportation services only
“[w]hen the client is actually in the vehicle” and “[u]sing the most direct and logical route from
the client’s residence to the service location.” In addition, 471 NAC 2-002.03 states that the
State of Nebraska may impose sanctions upon a provider for, among other reasons, “[p]resenting
a claim, billing, or causing a claim to be presented for payment for services not rendered
(including ‘no-shows’).” Further, 471 NAC 2-001.03 requires that providers submit claims
which are true, accurate, and complete.

For 29 of the 100 sampled claims, the State agency improperly claimed costs for NEMT
services. Specifically, the State agency claimed reimbursement for 59 NEMT services that were
not rendered. For 55 of the 59 services, SMC presented claims for recipients who had either
canceled the requested service or were “no-shows” at the scheduled origination address. For the
remaining 4 services, SMC billed the State agency twice for the same service.

Unsupported Services

The CMS State Medicaid Manual, section 2500.2(A), requires that the State agency “[r]eport
only expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is immediately available when the claim is filed.” (Emphasis in original.)

473 NAC 3-002.02 requires that before furnishing any service, each transportation provider shall
sign an agreement with the State of Nebraska whereby the provider agrees to retain financial and
statistical records for 4 years to support and document all claims and to allow Federal, State, or
local offices responsible for program administration or audit to review service records, in
accordance with 45 CFR §§ 74.20 through 74.24.

For 10 of the 100 sampled claims, 1 the State agency did not claim some costs for NEMT services
pursuant to Federal and State requirements. For these 10 claims, SMC did not maintain
documentation supporting 11 NEMT services billed to the State agency.




1
    Six claims had errors relating both to billed services not rendered and to unsupported services.

                                                             4
UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

Of the 100 NEMT claims in our sample, 33 had 70 errors totaling $1,091 ($674 Federal share) of
improper Medicaid reimbursement. Based on the results of our sample, we estimated that the
State agency claimed $89,589 ($54,766 Federal share) for NEMT services that were not
allowable pursuant to Federal and State requirements.

Although the State agency had controls in place to monitor payments for NEMT services, these
controls did not always prevent unallowable services. SMC officials stated that State agency
liaisons gave them the authority to present claims for recipients who had either canceled the
requested service or were “no-shows” at the scheduled origination address. However, State
agency officials stated that they were unaware of these billing practices.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $54,766 to the Federal Government for unallowable NEMT services that did not
       comply with Federal and State requirements,

   •   instruct transportation providers not to submit claims for “no-shows” or cancellations,
       and

   •   strengthen internal controls to prevent and detect improper payments for NEMT services.

SHARED MOBILITY COACH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Shared Mobility Coach Comments

In written comments on our draft report, SMC disagreed with some of our findings. Specifically,
SMC stated that we should not classify the 59 NEMT services (that were not rendered) as errors
because “… there was never a clear definition of not billing for cancels at the door and no-
shows.”

SMC stated that it has implemented corrective action to prevent future claims for “no-shows” or
cancellations.

For our finding related to the 11 unsupported services, SMC attributed the errors to “… poor
communication or documentation between drivers and dispatchers.”

SMC’s comments appear in their entirety as Appendix C.




                                                5
Office of Inspector General Response

Nothing in SMC’s written comments caused us to change our findings or recommendations
regarding improper claims for cancellations or “no-shows.” Although SMC stated that there was
no clear definition of billing for these instances, 471 NAC 27-005 specifies that the State agency
will pay for transportation services only “[w]hen the client is actually in the vehicle.” Further,
State agency officials informed us that they were unaware of SMC’s billing practices in these
instances.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our first recommendation.
Regarding our second recommendation, the State agency said that it had reminded providers in
April 2009 that they would not receive compensation for wait times or “no-shows.” For our
third recommendation, the State agency described corrective actions that it had implemented or
planned to implement.

The State agency’s comments appear in their entirety as Appendix D.




                                                6
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consists of paid Non-Emergency Medical Transportation (NEMT) claims to
Shared Mobility Coach, claims that were reimbursed by the Medicaid program during the period
July 1, 2007, to June 30, 2009.

SAMPLING FRAME

The sampling frame is a database of claim records consisting of 12,146 claims totaling
$1,269,990 ($776,680 Federal share) for NEMT services paid during the period July 1, 2007,
through June 30, 2009.

SAMPLE UNIT

The sampling unit is a paid transportation claim for NEMT services.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (paid claims).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for NEMT services. Because of
the significant increase in the Federal medical assistance percentage rate provided under the
American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, we made separate
estimations for the total unallowable costs and for the Federal share of those unallowable costs.
                      APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                     SAMPLE RESULTS

                                                           Number With          Value of
                                 Sample      Value of      Unallowable         Unallowable
Frame Size       Frame Value      Size       Sample         Payments            Payments
  12,146          $1,269,990       100        $9,323           33                $1,091

                      ESTIMATES OF UNALLOWABLE PAYMENTS
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                                                 Total Estimated
                            Total Estimated                    Unallowable Services
                          Unallowable Services                   (Federal Share)
Point estimate                  $132,481                              $81,890
Lower limit                      $89,589                              $54,766
Upper limit                     $175,373                             $109,104
                                                                                                         Page 1 of 1


    APPENDIX C: SHARED MOBILITY COACH COMMENTS 





   SAfe Shared Mobility Coach 

   2222 Cuming Street 

   Omaha, NE. 68102-4328 

   May 16,2011

   Mr. Patrick J. Cogley 

   Regional Inspector General for Audit Services 

   Region VII 

   601 East 12" Street 

   Room 0429 

   Kansas City, MO.64106 




   May 15,2011

   RE:     A-07-10..o.t172:


   Mr. Pabick Cogley:

   59 errors for billing cancels at the door should be disallowed because there was never a clear
   definition of not billing for cancels at the door and no-shows. Transportation providers state wide
   have billed when we fulfilled the request and gone to the pickup location. When SMC was
   informed by the new transportation resource development person not to bill for no-shows or
   cancelations at the door, computer billing corrections were made shortly there after and no-show
   and cancels at the door Is no longer a billing option.

   11 non-malicious errors were from poor communication or documentation between drivers and
   dispatchers.

   Please feel free to contact us at 402-345-6640 ext. 104.


A~~
v-:.:::T. ~umacher
   Executive Director 

   SMC Shared Mobility Coach 

                                                                                                       Page lof2


                      APPENDIX D: STATE AGENCY COMMENTS 





.....~.M..                OiviSion of MediCaid and Long. Term Care
~~~~------------------~---------------------------o-~--He--me-mm--n-.-G-QV-~-~--
  ami Human 8erv1cu
                                                                                        State of Nebraska




           June 24,2011




           Patrick.l, Cogley
           Regional Inspector General for Audit Services
           Office of Inspector General
           Department of Health and Human Services, Region VII
           601 East l2'h Street, Room 0429
           Kansas City, Missouri 64106

           RE: Report Number A-07-1 0-04172

           Dear Mr. Cogley:

           The Nebraska Department of Health and Human Services (DHHS) Division of Medicaid
           and Long-Term Care is pleased to have the opportllnity to respond to the Draft Audit
           Report entitled Review Q[ Costs Claims by the State of Nebraska for Non-Emergency
           Transportation Services Provided by Shared Mobility Coach. DHHS strives to administer
           Medicaid reimbursement in compliance with current Federal and State law, policies, and
           procedures and is committed to working to resolve the issues identified in this audit
           review.

           DHHS is also appreciative of the hard work on the pan ofOIG staff to gather information
           from statT and providers. Your observations are important in helping improve policies
           and procedures alreadY in place and ensure continued compliance. DHHS' specific
           responses to each of the preliminary tindings and recommendations identified in the Draft
           Audit Report follow.

           OIG RECOMMENDATION #1; Refund $54,766 to the Federal Government for
           unallowable Non-Emergency Medical Transportation (NEMT) claims.

           DHHS RESPONSE: DHHS agrees and will refund this amount to the federal
           government.

           OIG RECOMMENDATION #2: InstrUct transportation providers not to submit claims
           for "no-shows" or cancellations.

           DHHS RESPONSE: In April 2009, Provider Bulletin 09-08 was released to all Non­
           Emergency Transportation Providers regarding provider responsibilities and Service


                                               _ _' _~rt:Jl4$
                                          HeTp;fI(l
                                          Al>E       People LivIJ
                                                     _~


                                              prif'Qd wAhY.!'t   ~Atlti~~
                                                                                             Page 2 of 2




Provider Agreements. The Bulletin included a reminder that all providers are paid for
loaded miles only and will not receive compensation for wait times or no-shows.


OIG RECOMMENDATION #3: Strengthen internal controls to prevent and detect
improper payments for NEMT services.

DHHS RESPONSE; mn-Is plans to continue to build on the improvements already
implemented to ensure that Medicaid payment complies with Federal and State
requirements. As discussed with the oro auditors, measures to increase operational
efficiency and accuracy were enacted prior to the audit or were in the process of being
developed.

In May 2011, millS implemented a Transportation Brokerage to adminiSter non­
emergency medical and non-medical transpOIiation services. The Med'icaid program
awarded a contract to American Medical Response/Access2Care (AMRlA2C), to
coordinate and manage the transportation benefit in a consistent, efficient and cost
effective manner. t\ major change is in the authorization tor payment of transpOltation
services. AMR/A2C is required to ensure the Medicaid NET provider network is in
compliance with all current Federal and State law, policies, and procedures, and provide a
comprehensive audit process for those services billed for payment. In addition, the
AMRJA2C network provider manuals instruct providers that no payment is made for "no
shows" or cancelled trips, the issue addressed in Recommendation #2.

Should you have any questions, do not hesitate to contact me.

Sincerely,



Vivianne M. Chaumont, Director
Division of Medicaid & Long-Term Care
Department of Health and Human Services
